                 OFFICE OF
          THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



           FOLLOW-UP: ANALYSIS OF
          INFORMATION CONCERNING
        REPRESENTATIVE PAYEE MISUSE
         OF BENEFICIARIES’ PAYMENTS

                         A-13-06-26097




        EVALUATION
          REPORT




This document is a draft report of the Office of the Inspector General
 and is subject to revision; therefore, recipients of this draft should
 not disclose its contents for purposes other than for official review
  and comment under any circumstances. This draft and all copies
  thereof remain the property of, and must be returned on demand
                to, the Office of the Inspector General.
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      January 18, 2007                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: Analysis of Information Concerning Representative Payee Misuse of
           Beneficiaries’ Payments (A-13-06-26097)


           OBJECTIVE
           Our objective was to determine the extent to which the Social Security Administration
           (SSA) implemented certain recommendations from our June 2002 report, Analysis of
           Information Concerning Representative Payee Misuse of Beneficiaries’ Payments.

           BACKGROUND

           Some individuals cannot manage or direct the management of their benefits because of
           their youth or mental and/or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and manage these beneficiaries’ 1
           payments. A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance
           beneficiaries or Supplemental Security Income recipients when representative payment
           would serve the individual’s interests.

           A representative payee is required to use the funds only for the beneficiary’s use and
           benefit. Benefit misuse occurs when representative payees do not use payments for
           the beneficiary’s current and foreseeable needs or do not conserve unused funds for
           the beneficiary. SSA is responsible for monitoring representative payees and for
           investigating all allegations of misuse. When SSA determines misuse has occurred,
           the suspected violation should be referred to the Office of the Inspector General (OIG)
           to consider possible criminal, civil, and/or administrative remedies.

           Our prior report identified several concerns in SSA’s monitoring and oversight of
           representative payees and made recommendations to address these issues. Of the
           seven recommendations in our June 2002 report (Appendix B), we reviewed the extent

           1
             For the purpose of this report, the term “beneficiary” is used for both Old-Age, Survivors and Disability
           Insurance beneficiaries and Supplemental Security Income recipients.
Page 2 – The Commissioner


to which SSA implemented six. See Appendix C for detailed discussions of the Scope
and Methodology and Appendix D for the Sampling Methodology. We did not review
the recommendation regarding SSA’s creation and implementation of management
controls to ensure compliance with mandatory repayment of misused benefit payments
when representative payees are retained after benefit payment misuse has occurred.
Our August 17, 2006 report, Restitution of Misused Funds to Beneficiaries Under Public
Law 108-203, relates to this recommendation. In general, the audit disclosed that SSA
adequately implemented section 101 of Public Law 108-203.

During our review, we analyzed information from two Representative Payee System
      2                                       3
(RPS) data extracts. First, in February 2006, we obtained a data extract of individual
representative payees with “misuse determinations” 4 made between November 2002
and February 2006. Second, we obtained a data extract of individual representative
                                              5
payees serving beneficiaries as of April 2006. In addition, we evaluated data recorded
        6
in RPS for the 521 individual representative payees identified in our June 2002 review.

The February 2006 data extract indicated SSA made misuse determinations pertaining
to 2,603 individual representative payees between November 2002 and February 2006.
We examined the data to identify payees having misuse determinations that were not
referred to OIG. Of these, we selected a sample of 35 payees for review (Appendix D).

In addition, we evaluated the February 2006 data extract for individual representative
payees having misuse determinations made after issuance of our prior report but who
were continuing to serve as payees. Specifically, we examined 2,423 payees who had
misuse determinations made between January 2003 and December 2005.

Also, we used the February 2006 data extract to analyze data regarding periodic
assessments of the continued suitability of individual representative payees who
previously misused benefit payments. We examined all 48 payees having (1) misuse
determinations made between January 2006 and February 2006 and (2) the misuse of
funds ended during this same period.

Finally, our April 2006 data extract identified 5,555,784 individual representative payees
serving beneficiaries. We matched these payees’ Social Security numbers against
Social Security numbers of beneficiaries being served by individual representative


2
 RPS contains data about representative payee applicants and individuals in the representative payee’s
care. Social Security Act § 205(j)(3)(F), 42 U.S.C. 405(j)(3)(F).
3
    The data extract was obtained from SSA’s records as of February 28, 2006.
4
  For the purpose of this report, the term “misuse determination” denotes when SSA has made a decision
that misuse occurred.
5
    The data extract was obtained from SSA’s records as of April 14, 2006.
6
    We examined data recorded in RPS as of February 21, 2006.
Page 3 – The Commissioner


payees. This match identified 800 payees who also had payees themselves. Of these
800, we reviewed all 75 payees who were appointed during Calendar Year 2005.

RESULTS OF REVIEW
Based on our review, SSA took some level of corrective action on most
recommendations we reviewed from our June 2002 report, Analysis of Information
Concerning Representative Payee Misuse of Beneficiaries’ Payments. However, we
found there was not full compliance with all Agency policies and procedures applicable
to certain recommendations. During our follow-up review, we were unable to identify
evidence that SSA referred all misuse cases to OIG for further review. In addition, we
identified instances involving pending representative payees that may have resulted in
payees serving beneficiaries while having payees for their own benefits at the same
time.

Recommendations from Our Prior Review

Below, we discuss Recommendations 1 through 4, 6 and 7; the corrective actions taken
by the Agency; and the results of our review. Recommendation 5 is not discussed in
this report because our August 2006 report relates to this recommendation.

   Recommendation 1: We recommended that SSA develop and implement a
process to identify and refer prior known instances of representative payee misuse to
the OIG for possible criminal, civil and/or administrative remedies.

The Agency stated it would work with OIG to identify and formally refer all cases
involving representative payee misuse, including the 521 instances of misuse identified
in our June 2002 report.

SSA staff indicated the 521 misuse cases were referred to OIG for further review.
However, Agency staff did not provide evidence that SSA referred all the misuse cases.
To verify SSA’s referral of prior known instances of payee misuse, we reviewed data for
the 521 individual representative payees identified in our prior report. Of the 521, we
used information in an OIG information system to determine 124 misuse cases were
referred for review. We were unable to identify evidence that SSA referred the
remaining 397 misuse cases. Further, we could not determine why the cases were not
referred to OIG. At the time of our 2002 review, the 397 representative payees had
misused approximately $4.5 million in benefit payments. As of August 2006, these
misuse cases were over 6 years old.

    Recommendation 2: We recommended SSA follow existing policy7 for referring all
future representative payee misuse cases to the OIG for possible criminal, civil and/or
administrative remedies.


7
    Program Operations Manual System (POMS) GN 00604.045B6c.
Page 4 – The Commissioner


The Agency reported it issued Administrative Message (AM) 02108 to field offices on
June, 28, 2002. In the reminder, SSA stated

         All approved misuse determinations must be referred to the OIG
         regardless of the misuse amount and disposition of the case (GN
         00604.045). Refer misuse determinations to OIG formally, regardless
         of whether the misused funds are being repaid, have been paid in full
         or efforts to recover the misused funds have been abandoned.

To assess SSA’s referral of payee misuse to OIG, we analyzed certain misuse
determinations identified in our February data extract. From November 2002 through
February 2006, SSA made misuse determinations for 2,603 individual representative
payees. Of the 2,603, we found evidence indicating 734 payees (28 percent) were
referred to the OIG. Of the remaining 1,869 payees (72 percent), we selected 35 for
further review. In June 2006, we requested SSA provide evidence these payees were
referred to OIG or determine why the referrals were not made.

As of October 6, 2006, the Agency had provided information pertaining to 21 payees.
Of the 21, SSA reported it was reviewing 9 payees. For the remaining 12 payees,
3 were referred to OIG after our June 2006 inquiry; 2 were not referred because of low
dollar values of the misuse; and 1 was not referred because recovery of misused funds
was unlikely. SSA reported misuse determination data in RPS for the remaining
6 payees was incorrect. According to Agency staff, these errors occurred because
some misuse determinations may have been recorded in RPS before “development”
was complete to conclude payees misused funds.

The results of our review indicated SSA staff did not fully comply with AM 02108. Staff
interpretation of the policy may have resulted in the misuse determinations not being
referred to the OIG. The Agency should increase compliance by initiating referrals
through RPS when “approved misuse determinations” are entered into RPS. RPS
could be modified so the electronic version of Form SSA-8551-U4 (e8551), Referral of
Potential Violation, would be generated when the misuse data are entered.

   Recommendation 3: We recommended SSA comply with Agency policy that
representative payees are rarely retained after misuse has occurred.

The Agency issued a reminder 8 stating particular care must always be taken in retaining
any payee who has misused funds.

To determine whether payees who misused funds continued to serve as payees, we
examined information in RPS for the 521 payees identified in our prior report. In
addition, we identified and reviewed the 2,423 individual representative payees with
misuse determinations between January 2003 and December 2005. We found 81
(15.5 percent) of the 521, and 556 (22.9 percent) of the 2,423 individuals were retained
to serve as payees. Further examination revealed most individuals retained as payees
8
    AM 02108.
Page 5 – The Commissioner


were relatives of the beneficiaries. SSA policy ranks natural and adoptive parents and
other relatives “high” in its preferred order of payee selection (see Table 1).

          Table 1: Payees Retained After Misuse Relationship to Beneficiaries

                                                       Misuse Determinations
      Relationship of Payee to   Committed Misuse
                                                          January 2003 to          Total
             Beneficiary         June 2002 Review
                                                          December 2005
     Mother                              61                    342                  403
     Father                              12                     59                   71
     Other Relative                       7                     63                   70
     Grandparent                          1                     19                   20
     Child                                0                     14                   14
     Spouse                               0                     10                   10
     Other Individual (Friend
     etc.)                                0                      47                  47
     Blank                                0                       2                  2
     Total                               81                      556                637

Also, after SSA initially determined funds had been misused, the RPS data indicated
three individual representative payees subsequently committed misuse.

    Recommendation 4: We recommended SSA periodically assess the continued
suitability of representative payees who previously misused benefit payments. SSA
should closely monitor these representative payees to detect and prevent the misuse of
benefit payments belonging to its most vulnerable beneficiaries.

The Agency stated it would review instructions to clarify and emphasize the
requirements to monitor payees retained after misusing beneficiary funds and explore
the use of system controls to ensure follow-up reviews to assess representative payee
continued suitability. SSA did not issue new or modified policy concerning
requirements to monitor payees retained after misusing beneficiary funds. Also, new
system controls were not instituted for follow-up reviews to assess representative payee
continued suitability.

Regarding monitoring payees who previously misused funds, SSA policy9 directs that
the appointment of questionable payees must be monitored by personal contact. This
includes payees who have questionable prior or current service. Further, Agency
policy 10 directs the use of diaries as a method of facilitating such follow-up activities.

To determine whether SSA assessed the continued suitability of payees who previously
misused benefit payments, we examined all 48 individual representative payees who
had (1) misuse determinations made between January and February 2006 and (2) the

9
     POMS GN 00504.185.
10
     POMS GN 00502.134.
Page 6 – The Commissioner


misuse of funds ended during the same period. Of the 48 payees, 41 (85 percent) were
no longer serving as individual representative payees, and 7 (15 percent) were still
serving as payees. For these seven payees, we did not find diaries pertaining to
follow-up activities, as required by SSA’s policy (see Table 2).

              Table 2: Relationship of Payees to Beneficiaries Served

      Relationship of Payee to        Number of       Amount of Benefits Payments
             Beneficiary               Payees             Misused by Payee
   Mother                                  2                     $18,859
   Other Relative                          3                       4,082
   Grandparent                             1                       4,656
   Child                                   1                       2,356
   Total                                   7                     $29,953

In May 2006, we requested that SSA provide information regarding the seven diaries.
SSA staff stated the diaries had not been established. However, they did not provide
information concerning why the diaries were not established. Other than the diaries,
SSA staff explained no other documentation would be available to indicate follow-up
activities were initiated for these seven payees.

   Recommendation 6: We recommended SSA automate the process that identifies
incarcerated representative payees. This process should alert SSA of the need to
assess an individual’s continued suitability to serve as a representative payee.

The Agency reported its process of identifying incarcerated representative payees has
been automated since November 2002. SSA also reported the Prisoner Update
Processing System (PUPS) and RPS data are matched on a daily basis to timely
identify representative payees who are incarcerated.

We verified that an automated process was in place to match PUPS and RPS data.
Our report on The Effectiveness of Policies and Procedures Used to Identify
Incarcerated Representative Payees stated the Agency’s use of information from PUPS
and RPS data matches. In September 2004, we reported the data matching was
occurring between PUPS and RPS. However, for some cases, we could not identify
evidence that SSA conducted reviews to determine the suitability of the incarcerated
representative payees.

   Recommendation 7: We recommended SSA implement management controls to
prevent the appointment of individuals as representative payees who have a
representative payee managing their own benefits, and identify individuals currently
serving as representative payees that become incapable of managing their own benefits.

The Agency reported it had established systems controls to prevent the selection of
individuals who have a payee as a payee for someone else. In September 2001, RPS
began generating an alert when (1) a payee applicant is a current beneficiary with a
Page 7 – The Commissioner


payee or (2) a person is applying to serve as payee for a beneficiary who is a payee for
another individual. If the user ignores the alert and attempts to process the payee
selection, RPS blocks the selection.

For representative payees who had payees that already existed on the RPS database,
SSA performed a match to identify such cases. The results of the match were sent
to SSA’s field offices for review. SSA also conducted matches in April 2002 and
August 2003 to identify any remaining inappropriate selections.

To determine whether individual representative payees had payees, we analyzed our
April 2006 RPS data extract. The data indicated 800 payees also had representative
payees. Of the 800, we selected for further review all 75 payees who were appointed
during Calendar Year 2005.

Our analysis of the RPS records identified data errors in 70 of 75 records. These
records contained data that erroneously identified individual representative payees who
were also being served by other payees. Since we did not detect data errors in the
remaining five RPS records, we discussed these records with Agency staff.

Of the five records, Agency staff explained four involved payees whose applications were
pending. Based on information provided by SSA staff, the RPS alert implemented in
2001 did not identify instances involving pending representative payees. As a result, if
pending representative payees were actually appointed, but not recorded as a payee in
RPS, the 2001 RPS alert would not be generated to prevent the selection of an individual
who had a payee from being a payee for someone else. SSA staff indicated this is most
likely what occurred regarding the four records we identified. Agency staff was unable to
determine the cause for the remaining record.

Agency staff stated additional management controls were implemented in April 2005 to
address instances involving pending representative payees. The four records we
identified involving pending representative payees had payees actually appointed
before this date. We referred the five payees to the Office of the Deputy Commissioner
for Operations, Office of Public Service and Operations Support for further action.

SSA should review some of the records we did not examine to identify additional
representative payees who also have payees themselves. Our analysis of the
five records referred to the Agency for further action had one condition in common.
These records listed appointment dates designating the individuals as payees and
assigning these same individuals their own payees within 6 months. Of the 725 records
identified, 261 had this condition. We believe SSA should review these 261 payees.
Page 8 – The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA has taken action to implement recommendations from our June 2002 report.
However, we found the Agency’s actions did not always result in full compliance with
SSA’s policies and procedures. We encourage the Agency to continue its corrective
actions, and reaffirm our prior recommendations concerning referral of representative
payees’ misuse of funds to the OIG. To further improve oversight and monitoring of
payees, we recommend SSA:

1. Comply with its existing policy for referring all representative payee misuse cases to
   the OIG, or evaluate the impact current policy has on Agency operations and revise
   policy to reflect a risk-based approach.

2. Determine whether it would be cost-effective to require that staff initiate referrals
   through RPS when approved misuse determinations are entered into the system.

3. Review the 261 payees we identified to determine whether they should continue to
   serve as payees.

AGENCY COMMENTS

The Agency agreed with our recommendations. The full text of the Agency’s comments
is included in Appendix E.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Recommendations from June 2002 Report, Analysis of Information
             Concerning Representative Payee Misuse of Beneficiaries’ Payments
             (A-13-01-11004)
APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                           Appendix A

Acronyms
AM     Administrative Message
OIG    Office of the Inspector General
POMS   Program Operations Manual System
PUPS   Prisoner Update Processing System
RPS    Representative Payee System
SSA    Social Security Administration
                                                                                 Appendix B

Recommendations from June 2002 Report, Analysis of
Information Concerning Representative Payee Misuse of
Beneficiaries’ Payments (A-13-01-11004)
In our June 2002 report, Analysis of Information Concerning Representative Payee
Misuse of Beneficiaries’ Payments, we stated when misuse occurs, SSA must take
action to remedy or correct the beneficiary’s situation. We recommended SSA:

    1. Develop and implement a process to identify and refer prior known instances of
       representative payee misuse to the Office of the Inspector General (OIG) for
       possible criminal, civil and/or administrative remedies.

    2. Follow existing policy for referring all future representative payee misuse cases
       to the OIG for possible criminal, civil and/or administrative remedies.

    3. Comply with Agency policy that representative payees are rarely retained after
       misuse has occurred.

    4. Periodically assess the continued suitability of representative payees that
       previously misused benefit payments. SSA should closely monitor these
       representative payees to detect and prevent the misuse of benefit payments
       belonging to its most vulnerable beneficiaries.

    5. Create and implement management controls to ensure compliance with
       mandatory repayment of misused benefit payments when representative payees
       are retained after benefit payment misuse has occurred. 1

    6. Automate the process that identifies incarcerated representative payees. This
       process should alert SSA of the need to assess an individual’s continued
       suitability to serve as a representative payee.

    7. Implement management controls to prevent the appointment of individuals as
       representative payees who have a representative payee managing their own
       benefits, and identify individuals currently serving as representative payees that
       become incapable of managing their own benefits.




1
 We did not include this recommendation in our review. Our August 17, 2006 report Restitution of
Misused Funds to Beneficiaries Under Public Law 108-203, relates to this recommendation.
                                                                                 Appendix C

Scope and Methodology
The review was a follow-up of the recommendations in our June 2002 report, Analysis
of Information Concerning Representative Payee Misuse of Beneficiaries’ Payments.
Our objective was to determine the extent to which the Social Security Administration
(SSA) implemented certain recommendations from our June 2002 report.

To accomplish our objective, we:

•     Interviewed officials from SSA’s Offices of Central Operations, Public Service and
      Operations Support, and Systems to determine the status of corrective actions
      taken to address recommendations in our June 2002 report.

•     Reviewed applicable Federal laws and SSA policy relating to the Representative
      Payee System (RPS).

•     Reviewed prior Office of the Inspector General reports.

•     Obtained an understanding of the Prisoner Update Processing System’s
      functionality.

•     Obtained and reviewed management information generated from interfacing of
      Prisoner Update Processing System and RPS.

•     Reviewed SSA’s Administrative Messages and other forms of internal
      communications pertaining to the Representative Payment Program.

•     Examined data recorded in SSA’s information systems regarding the representative
      payees identified in our prior report.

•     Analyzed two electronic data extracts of information recorded in RPS: (1) a
      February 2006 1 data extract of 2,603 individual representative payees with “misuse
      determinations” 2 between November 2002 and February 2006 and (2) an
      April 2006 3 data extract of 5,555,784 individual representative payees serving
      beneficiaries.



1
    The data extract was obtained from SSA’s records as of February 28, 2006.
2
 For the purpose of this report, the term “misuse determination” is used to denote when SSA made a
decision that misuse occurred.
3
    The data extract was obtained from SSA’s records as of April 14, 2006.


                                                     C-1
For the February 2006 data extract, we reviewed three specific segments of data. From
the extract population, we selected a sample of 35 cases for further review. We also
selected for review the 2,423 payees with misuse determinations between January
2003 and December 2005. In addition, we reviewed all 48 payees with misuse
determinations between January and February 2006 and the misuse of funds ended
during this same time period.

Regarding our April 2006 data extract, we matched payees’ Social Security numbers
against the Social Security numbers of beneficiaries being served by individual
representative payees. This match identified 800 payees who also had payees
managing their benefits. Of the 800, we reviewed all 75 payees who were appointed
during Calendar Year 2005.

We determined that the data used in this report were sufficiently reliable given our
review objectives and intended use of the data. The electronic data used in our review
were primarily extracted from RPS. We assessed the reliability of the electronic data by
reviewing the data extract for all the data elements needed to meet our objective. We
also traced information from the data extract to the RPS source database. Finally, we
verified the data extract contained the criteria we requested.

We performed our review at SSA Headquarters in Baltimore, Maryland, between
January and September 2006. The entity audited was the Office of Operations under
the Deputy Commissioner for Operations. We conducted our evaluation in accordance
with Quality Standards for Inspections issued by the President’s Council on Integrity
and Efficiency.




                                          C-2
                                                                      Appendix D

Sampling Methodology
We used sampling to determine the cause of representative payee misuse cases not
being referred to the Office of the Inspector General (OIG) for possible criminal, civil
and/or administrative remedies. On February 28, 2006, we obtained a data extract
from the Representative Payee System of 2,603 individual representative payees with
“misuse determinations” between November 2002 and February 2006. From these
data we selected a sample of 35 cases for further review.

To obtain the sample, we sorted the cases by misuse amount and extracted the misuse
determinations with the five highest amounts of misused funds. We then separated the
remaining misuse determinations into two groups: (1) misuse determinations with
misuse amounts above $10,000 and (2) misuse determinations with misuse amounts
below $10,000. Next, we selected 15 misuse determinations with misuse amounts
above $10,000 and 15 misuse determinations below $10,000. We extracted the
35 misuse determinations meeting these criteria and requested that the Social Security
Administration provide information about the disposition of these instances of misused
funds. Specifically, we requested the Social Security Administration inform us of the
following.

1. Were the misuse determinations referred to the OIG?

2. If the misuse determinations were referred to OIG, when (date)?

3. If the misuse determinations were not referred to OIG, please explain the reason.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      January 12, 2007                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye          /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Follow-up: Analysis of Information
           Concerning Representative Payee Misuse of Beneficiaries’ Payments" (A-13-06-26097)—
           INFORMATION



           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         E-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“FOLLOW-UP: ANALYSIS OF INFORMATION CONCERNING REPRESENTATIVE
PAYEE MISUSE OF BENEFICIARIES’ PAYMENTS” (A-13-06-26097)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this follow-up analysis of information concerning Representative Payee (Rep Payee)
misuse of beneficiaries’ payments. The Agency is committed to making sure that our most
vulnerable beneficiaries, who are not capable of managing their own funds due to age or mental
capacity, have proper Rep Payees. We continue to review and assess Rep Payees to make sure
they manage benefits properly and use the money on behalf of the beneficiary.

Recommendation 1

SSA should comply with its existing policy for referring all Rep Payee misuse cases to the OIG,
or evaluate the impact current policy has on Agency operations and revise policy to reflect a risk-
based approach.

Comment

We agree. We will continue to comply with existing policy and refer all Rep Payee misuse cases
to the OIG. Also, we agree to determine whether the referral of every confirmed misuse case to
the OIG is feasible or if a risk-based approach should be developed. We are interested in the idea
of the establishment of some kind of risk-based approach for referring misuse cases; for example,
a tolerance which would not require the referral of cases with relatively small amounts of misuse.
However, because the current policy is based on the OIG’s request that all misuse cases be
referred, we ask that the OIG assist the Agency in determining if a risk-based approach (e.g., a
tolerance for referrals) is feasible.

Recommendation 2

SSA should determine whether it would be cost-effective to require that staff initiate referrals
through Representative Payee System (RPS) when approved misuse determinations are entered
into the system.

Comment

We agree. Implementing this recommendation would increase the likelihood of misuse cases
being properly referred to OIG. We will work to determine if it would be cost-effective to
enhance the RPS to include an automatic referral to OIG.

Recommendation 3

SSA should review the 261 payees the OIG identified to determine whether they should continue
to serve as payees.




                                                E-2
Comment

We agree that all cases that have beneficiaries, with Rep Payees, who serve as a Rep Payee for
other beneficiaries, should be reviewed and corrected. Any misuse determination cases will be
referred to the OIG.




                                              E-3
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Randy Townsley, Audit Manager, General Management (410) 966-1039

Acknowledgments

In addition to those named above:

   Eugene Crist, Auditor



For additional copies of this report, please visit our web site at ww.socialsecurity.gov/oig
or contact the Office of the Inspector General’s Public Affairs Specialist at
(410) 965-3218. Refer to Common Identification Number A-13-06-26097.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
